No.
JOSHUA CHIAZOR EZEKA,
Petitioner,
Vv.
STATE OF MINNESOTA
Respondent.
AFFIDAVIT OF SERVICE

I, Logan Dedow, of lawful age, being duly sworn, upon my oath state that I did, on
October 13, 2020, send out from Saint Paul, Minnesota 1 package containing 1
copies of the PETITION FOR WRIT OF CERTIORARI (prepared as required by
Rule 33.2) in the above entitled case. All parties required to be served have been
served by Priority Mail. The package was plainly addressed to the following:

Keith Ellison
Office of the Minnesota Attorney General
445 Minnesota Street, Suite 1400
St. Paul, MN 55101

Subscribed and sworn to before me on this 13th day of October, 2020.
I am duly authorized under the laws of the State of Minnesota to administer oaths.

NICHOLAS RATKOWSKI

NOTARY PUBLIC - MINNESOTA

Notary Public Ati

 
